Office of Inspector General

December 17, 2010

MEMORANDUM

TO:                  Jon Brause, Deputy Assistant Administrator
                     Bureau for Democracy, Conflict and Humanitarian Assistance

                     Deborah Kennedy-Iraheta
                     Director, Office of Human Resources

FROM:                Melinda Dempsey, Deputy Assistant Inspector General /s/
                     Office of Audit

SUBJECT:             Review of the Bureau for Democracy, Conflict and Humanitarian Assistance’s
                     Use of Compensatory Time (Report No. 2-000-11-001-S)

This memorandum transmits our final report on the subject review; the review is not an audit.
We considered your comments on the draft in finalizing the review report and have included
your responses in Appendix II of the report.

The report contains four recommendations—three to the Bureau for Democracy, Conflict and
Humanitarian Assistance and one to the Office of Human Resources. Based on an evaluation
of management comments, management decisions have been reached on Recommendation 1,
3 and 4. A determination of final action on these recommendations will be made by the Audit,
Performance and Compliance Division upon completion of the planned corrective actions.

A management decision is pending on Recommendation 2. Please provide written notice, within
30 days, of any additional information related to actions planned or taken to implement
Recommendation 2.

I appreciate the cooperation and courtesy extended to my staff during this review.




U.S. Agency for International Development
1300 Pennsylvania Avenue, NW
Washington, DC 20523
www.usaid.gov/oig
SUMMARY
USAID policy acknowledges that occasionally its employees must work beyond their regularly
scheduled workweek “to avoid unusual backlogging of regular work or to meet unforeseen
circumstances.” Agency policies note that while supervisors should make certain that work
assignments are accomplished in a timely manner through the efficient management of
assigned personnel, when overtime is necessary employees should, to the maximum extent
possible, be encouraged to accept compensatory time off in lieu of overtime pay. According to
the Office of Personnel Management, compensatory time is time off with pay, rather than
overtime pay, for irregular or occasional overtime work. 1

The objective of the review was to determine whether Bureau for Democracy, Conflict and
Humanitarian Assistance (DCHA) managers approved compensatory time in accordance with
applicable USAID policies and procedures.

DCHA managers did not approve compensatory time in accordance with applicable USAID
policies and procedures. The review identified the following problems: (1) less than 20 percent
of the compensatory time hours earned in the first 6 months of 2010 were approved using the
required process (see pages 3-4), and (2) in those few instances when the required process
was used, requests contained errors and provided little information (see pages 4–5). This
report contains four recommendations to address these matters.

Specifically, it recommends that DCHA’s Assistant Administrator:

•   Issue guidance to all the Bureau’s employees explaining and mandating the use of webTA’s
    Premium Pay Request process (page 4).

•   Communicate to the Bureau’s employees and their supervisors the requirements applicable
    to compensatory time requests (page 5).

•   Authorize all DCHA supervisors to receive training in compensatory time regulations and
    processes (page 5).

And the report recommends that the Director of the Office of Human Resources:

•   Update Agency compensatory time policy and the Agency’s Web page to include the
    requirement that webTA be used for requesting and approving compensatory time (page 4).

In response to this report, Bureau for Democracy, Conflict, and Humanitarian Assistance agreed
with the three recommendations directed to it, and the Office of Human Resources agreed with
the one recommendation directed to it. On the basis of an evaluation of management’s
response to the draft information report, management decisions have been reached on
Recommendations 1, 3, and 4. Upon issuance of this report, a management decision on
Recommendation 2 is pending the provision of a plan to update the USAID Web page and a
corresponding target date for completion.

1
     Additional  information    on    USAID    policies relative to  compensation  may  be    found    at
http://www.usaid.gov/policy/ads/400/.   Information on the Office of Personnel Management’s definition of
compensatory time may be found at http://www.opm.gov/oca/pay/HTML/COMP.htm.


                                                                                                       1
Appendix I contains a discussion of the review’s scope and methodology.   Management
comments are presented in their entirety in Appendix II.




                                                                                   2
REVIEW RESULTS
The Bureau Should Use WebTA’s
Premium Pay Request Facility
In May 2008, USAID implemented an electronic timekeeping system called webTA. Through
Interim Update 08-05, the Agency issued policies related to the system that came into effect
immediately and would remain in force until the Automated Directives System (ADS) could be
updated. Interim Update 08-05 requires that requests to earn compensatory time be entered
into webTA using the Premium Pay Request facility.

   Premium Pay (overtime and compensatory time) requests are also done electronically in
   webTA.      Employee requests for premium compensation (i.e. overtime pay or
   compensatory time off) for overtime work must always be approved in advance by the
   supervisor. Approval is transmitted electronically through webTA, and it is the
   responsibility of the employee requesting premium pay to log on to webTA in advance of
   the proposed hours for overtime or compensatory time and obtain the proper
   authorization.

The Interim Update also notes that:

   The paper form AID 430-3 is no longer required to authorize overtime pay or
   compensatory time off.

According to data supplied by the Chief Information Officer’s staff, employees and supervisors
of the Bureau for Democracy, Conflict and Humanitarian Assistance (DCHA) generally did not
use webTA to request and approve compensatory time. Specifically, during the first half of
2010, less than 20 percent of the compensatory time hours DCHA employees earned were
requested through webTA’s Premium Pay Requests. In the same period, DCHA employees
earned 4,354 hours of compensatory time. By contrast, 809 hours of compensatory time were
requested using webTA’s Premium Pay Requests.

ADS 472 and the five related interim updates presented on the Agency’s Web site have not
been updated to reflect the requirement that webTA’s Premium Pay Request facility be used to
request and approve the earning of compensatory time. The ADS chapter and interim updates
continue to point to an obsolete process involving a paper form. Interim Update 08-05, which
explains the current process, is not readily available on the Web site. The inability to readily
access Agency policy about the current process for requesting permission to earn
compensatory time has created confusion about what process DCHA employees and their
supervisors should use. For example, one DCHA employee noted that she was not sure that
her coworkers used the same process that she used to request permission to earn
compensatory time.

Moreover, the varied and inconsistent processes for approving compensatory time instituted by
DCHA offices have deterred employees and supervisors from using the process the Agency
endorsed and required. DCHA offices have instituted about a half-dozen processes to request
permission to earn compensatory time. These processes include e-mail communication,




                                                                                              3
standardized memorandums, and the obsolete AID 430-3 paper form (“Overtime Authorization
and Report”).

DCHA managers did not enforce required procedures for authorizing and recording
compensatory time requests. This lack of enforcement reveals a breakdown in supervisory
monitoring and control of DCHA employee overtime.

To address this problem, this review makes the following recommendations.

   Recommendation 1. We recommend that the Assistant Administrator for the Bureau
   for Democracy, Conflict and Humanitarian Assistance issue guidance to all the Bureau’s
   employees explaining and mandating the use of webTA’s Premium Pay Request
   process for requesting approval to earn compensatory time.

   Recommendation 2. We recommend that the Director of the Office of Human
   Resources update Automated Directives System Chapter 472 and the USAID Web page
   to include the requirement that webTA be used for requesting and approving
   compensatory time.

Bureau Supervisors Should Approve
Only Well-Justified, Timely, and
Accurate Compensatory Time Requests
Both ADS Chapter 472 and Interim Update 06-01 note that overtime must be approved before it
is performed. Interim Update 08-05 clarifies this point and notes:

   Employee requests for premium compensation (i.e. overtime pay or compensatory time
   off) for overtime work must always be approved in advance by the supervisor. Approval
   is transmitted electronically through webTA, and it is the responsibility of the employee
   requesting premium pay to log on to webTA in advance of the proposed hours for
   overtime or compensatory time and obtain the proper authorization. No hours of
   overtime or compensatory time may be worked in the absence of the proper approvals.

The Interim Update also notes that:

   …webTA provides separate transaction codes for compensatory time earned in lieu of
   overtime pay and compensatory time earned for travel so these types of compensatory
   time off may be tracked separately as they are earned and used.

Of the 47 requests submitted in webTA, 37 contained deficiencies related to approving regular
compensatory time in advance of the commencement of work, justification for the use of
compensatory time, or accuracy in the coding of the type of compensatory time. Some requests
contained more than one deficiency.

Contrary to the requirements in ADS 472 and Interim Update 06-01, DCHA supervisors
approved 20 of the 47 regular compensatory time requests retroactively. On average, DCHA
employees requested approval to earn regular compensatory time 4 days after the date they
indicated they would begin the overtime. In one instance, a request was made 15 days after the
beginning date for overtime work.



                                                                                               4
Approved requests often were not sufficiently justified to support the supervisor’s decision.
Thirty of the 47 DCHA employees’ compensatory time requests in webTA omitted date-specific
justifications on which a supervisor could base a decision about the accuracy of the request,
showed a mismatch in the dates claimed and the justification provided, or included no
justification at all.

Of the compensatory time requests that included justifications, nine included rationales that
were inconsistent with the compensatory time codes used. Specifically, some requests for
“regular” compensatory time were coded for travel time, and conversely, requests coded for
travel compensatory time referred to regular compensatory time. A few webTA requests
combined hours for both travel compensatory time and regular compensatory time off in
individually coded requests.

Various factors may have caused the variable quality of management approvals to earn
compensatory time. However, feedback from DCHA supervisors and their employees suggests
that attitudes about the use and approval of compensatory time vary widely, from hostility
toward the benefit to actively taking the initiative to make it available. Because of these
attitudes, the quality of compensatory time oversight could have been adversely affected.

The following feedback from DCHA employees is illustrative:

•   There is a culture in DCHA of approving compensatory time without question if it relates to
    disaster relief and Critical Post Countries.
•   Requesting compensatory time is considered not in the best interests of career
    advancement.
•   Certain DCHA supervisors “fundamentally disagreed” with the compensatory time policy.

The effect of breakdowns in DCHA management’s oversight of employee compensation is that
management may not be ensuring that work assignments are accomplished in a timely manner
through the efficient management of assigned personnel without the use of premium
compensation. Furthermore, it is unclear from available records whether the correct amount of
compensatory time was approved and earned.

To improve management’s oversight of requests to earn compensatory time, this review makes
the following recommendations.

    Recommendation 3. We recommend that the Assistant Administrator for the Bureau
    for Democracy, Conflict and Humanitarian Assistance communicate to the Bureau’s
    employees and their supervisors the requirements that compensatory time requests
    must be justified, submitted, and approved before hours are worked and that such
    requests should be accurately coded.

    Recommendation 4. We recommend that the Assistant Administrator for the Bureau
    for Democracy, Conflict and Humanitarian Assistance authorize all DCHA supervisors to
    receive training in the regulations and processes related to regular and travel
    compensatory time.




                                                                                             5
EVALUATION OF
MANAGEMENT COMMENTS
On the basis of an evaluation of management’s response to the draft report, management
decisions have been reached on Recommendations 1, 3, and 4. A management decision on
Recommendation 2 is pending the provision of a plan to update the USAID Web page and a
corresponding target date for completion.

Recommendation 1. Management agreed with the recommendation and plans to issue a
bureau-wide information memorandum mandating the use of webTA and prohibiting alternative
methods. The target date for completion is December 17, 2010. A management decision has
been reached on this recommendation.

Recommendation 2. Management agreed with the recommendation and plans to update ADS
472 to include the requirement that webTA be used for requesting and approving compensatory
time. The revision of ADS 472 will also incorporate guidance on advance overtime approval for
work on emergencies or life-threatening crises. The target date for updating ADS 472 is
November 30, 2011.

The Office of Human Resources plans to discuss the portion of the recommendation relating to
updating the USAID Web page with the Office of the Chief Financial Officer. On the basis of
those discussions, the offices will determine how to communicate information regarding the use
of webTA to USAID employees. The Office of Human Resources did not provide firm plans or a
target date to update the USAID Web page. A management decision is pending the provision of
a detailed plan of action and a corresponding target date for completion.

Recommendation 3. Management agreed with the recommendation, contingent on the
deletion of two words in the recommendation. We agree with this modification to the
recommendation. Management plans to relay the standard procedures of requesting and
approving compensatory time in the information memorandum described above. The target
date for completion is December 17, 2010. A management decision has been reached on this
recommendation.

Recommendation 4. Management agreed with the recommendation and plans to work with
the Office of Human Resources to provide DCHA employees holding supervisory positions with
training on the regulations and procedures related to regular and travel compensatory time.
Management also plans to provide annual refresher training on compensatory time requests
and usage to all Bureau employees. The target date for completing the first supervisory training
session is January 14, 2011.        A management decision has been reached on this
recommendation.

Management comments are presented in their entirety in Appendix II (see pages 8–11).




                                                                                              6
                                                                                      Appendix I



SCOPE AND METHODOLOGY
Scope
The Office of Inspector General’s Inspections and Evaluations Division conducted this review of
the Bureau for Democracy, Conflict and Humanitarian Assistance’s use of compensatory time.
This review is not an audit, but nevertheless it complies with the general standards in Chapter 3
as well as the evidence and documentation standards in Paragraph 7.55 and Paragraphs 7.77
through 7.84 of Government Auditing Standards. Those standards require that we plan and
perform the review to obtain sufficient, appropriate evidence to provide a reasonable basis for
our findings and conclusions. We believe that the evidence obtained provides a reasonable
basis for our findings and conclusions in accordance with the review objective.

The purpose of this review was to determine whether management within the Bureau approved
compensatory time in accordance with applicable policies and procedures. We conducted this
review in Washington, DC, from August 10 to October 7, 2010. Although the review primarily
focused on the Bureau, it also involved obtaining relevant information from the Offices of the
Chief Information Officer, Chief Financial Officer, and Human Resources. The review focused
on the Bureau’s oversight and verification of compensatory time requests, with particular
attention to compliance with policy, accuracy, and reasonableness. The review was limited to
compensatory time reflected in the Agency’s system of record and did not consider the
sufficiency of the amount of compensatory time afforded to the Bureau’s employees. The
review considered requests and approvals to earn compensatory time during the first 13 pay
periods of 2010, which is roughly a 6-month period and about a quarter of the time that the
Agency’s electronic timekeeping system, webTA, has been in operation.

Methodology
To answer the review objective, we tested webTA Premium Pay Request and timesheet data
provided by technical staff from the Office of the Chief Information Officer. For example, we
tested all Premium Pay Requests in WebTA to determine whether requests were submitted
before work commenced. We also obtained information about Bureau practices and surveyed
all of the supervisors in the Bureau. We performed a limited amount of analysis on the Bureau’s
alternative processes because they were not the required process and their variety and number
made testing impractical. We also interviewed a limited number of Bureau supervisors and
employees to understand their attitudes, experiences, and concerns.




                                                                                               7
                                                                                    Appendix II



MANAGEMENT COMMENTS



MEMORANDUM


TO:           IG/A/IE, Joy Kadnar

FROM:         DCHA/AA, Jon Brause /s/

SUBJECT:      Review of the Bureau for Democracy, Conflict and Humanitarian Assistance’s
              (DCHA) use of Compensatory Time.
              (Audit Report No. 2-000-10-00X-S).

DCHA management has reviewed the subject audit report and appreciates the time and effort
that the Office of the Inspector General (OIC) put forth on this review. We are presenting the
following corrective actions to address recommendations 1, 3 and 4 under subject audit report.


Recommendation 1: We recommend that the Assistant Administrator for the Bureau for
Democracy, Conflict and Humanitarian Assistance issue guidance to all the bureau’s employees
explaining and mandating the use of WEBTA’s Premium Pay Request process for requesting
approval to earn compensatory time.

Management Position: DCHA management concurs with recommendation 1 in its entirety.

Management Decision: The Assistant Administrator for the Bureau for Democracy, Conflict
and Humanitarian Assistance will issue a bureau wide information memo mandating the use of
WEBTA’s Premium Pay Request process for requesting approval to earn compensatory time.
The memo will clearly state that no alternative method outside of the WEBTA system will be
accepted when requesting compensatory time. The information memo will be distributed to the
bureau by Friday, December 17, 2010.


Recommendation 3: We recommend that the Assistant Administrator for the Bureau for
Democracy, Conflict and Humanitarian Assistance communicate to the bureau’s employees and
their supervisors the requirements that compensatory time requests be justified, submitted, and
approved before the overtime hours are worked and that such requests be accurately coded.

Management Position: DCHA management concurs with recommendation 3 on the basis that
the last sentence be changed from “and approved before the overtime hours are worked” to
“and approved before hours are worked”.


                                                                                                 8
                                                                                    Appendix II



Management Decision: The Assistant Administrator for the Bureau for Democracy, Conflict
and Humanitarian Assistance shall further relay in the above mentioned bureau information
memo standard procedures for requesting and approving compensatory time. These standard
procedures will highlight the use of WEBTA as the official system for requesting and approval
compensatory time and will further outline the various codes for compensation time usage.


Recommendation 4: We recommend that the Assistant Administrator for the Bureau for
Democracy, Conflict and Humanitarian Assistance authorize all DCHA supervisors to receive
training in the regulations and processes related to regular and travel compensatory time.

Management Position: DCHA management concurs with recommendation 4.

Management Decision: The Assistant Administrator for the Bureau for Democracy, Conflict
and Humanitarian Assistance will work in conjunction with the Office of Human Resources,
more specifically the training division, to ensure that DCHA employees holding supervisory
positions are properly trained on the regulations and procedures related to regular and travel
compensatory time. This supervisory training session will also stress the importance of equal
opportunity in personnel management, as stated in ADS 110, as it relates to the consistency of
approving compensatory time requests. DCHA will also establish a bureau wide training,
chaired by the AMS staff, as annual refresher sessions on compensatory time requests and
usage. DCHA proposes a target date of Friday, January 14, 2011 for the first training session.


cc: M/CFO/APC, Karon Wilson




                                                                                                 9
                                                                                     Appendix II




                                                                            November 24, 2010

MEMORANDUM

TO:           IG/A/I&E, Director, Joy Kadnar

FROM:         DAA/HR, Deborah Kennedy-Iraheta /s/

SUBJECT:     Review of the Bureau for Democracy, Conflict and Humanitarian Assistance’s
use of Compensatory Time (Audit Report No. 2-000-10-00X-S)

My staff has reviewed the draft report detailing findings and recommendations for both DCHA
and OHR to improve the way compensatory time is requested and approved. We are providing
the following comments on the recommendation in OIG’s report for OHR’s appropriate
corrective action and target completion date as indicated.

Recommendation No. 2: We recommend that the Director of the Office of Human Resources
update Automated Directives System Chapter 472 and the USAID Web page to include the
requirement that webTA be used for requesting and approving compensatory time.

OHR will revise ADS Chapter 472 in 2011 with a target date of completion of November 30,
2011. This ADS revision requires other comprehensive changes which include incorporating
various interim updates on premium pay matters, clearances by other outside offices, and
negotiations with both unions.

OIG has recommended that the USAID Web site be updated to include the requirement that
webTA be used for requesting and approving compensatory time off. When the update of ADS
472 is in process, OHR/PPIM plans to discuss this recommendation with the Office of the Chief
Financial Officer, which has primary responsibility for the Agency’s electronic time and
attendance system. Based on these discussions, OHR will determine with M/CFO staff how
best to jointly communicate information regarding use of webTA to USAID employees and
supervisors.

It is noted in OIG’s findings that many overtime requests initiated by employees were after the
fact; in other words, forwarded to their supervisor after the date the employee actually
performed the overtime work. The webTA system allows requests prior to working overtime,
and thus, accommodates employee’s initiation and the supervisor’s approval in advance. Prior
to implementation of webTA, the Agency used a paper form, Overtime Authorization and
Report, AID 430-3 (03/2001), to document management’s authorization of overtime work.




                                                                                              10
                                                                                       Appendix II


In that there are emergency and life threatening crises managed by some USAID Bureaus and
Independent Offices, the webTA system may not accommodate advance overtime approval in
all such circumstances. OHR will explore with Bureaus and Independent Offices the scope of
these fast breaking mission critical situations. Appropriate guidance will be incorporated in the
revision of ADS 472.

For additional information or further clarification, please contact Joann Jones, OHR/PPIM, on
712-5048.

Cc:
DCHA/AA, Jon Brause
M/CFO/APC, Karon Wilson
OHR/PPIM, Abby O’Donnell
OHR/OD/File




                                                                                                11
U.S. Agency for International Development
       Office of Inspector General
      1300 Pennsylvania Avenue, NW
          Washington, DC 20523
            Tel.: 202-712-1150
            Fax: 202-216-3047
           www.usaid.gov/oig
